<html>
<title> - A MORE EFFICIENT AND EFFECTIVE</title>
<body><pre>[Senate Hearing 113-511]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-511

               A MORE EFFICIENT AND EFFECTIVE GOVERNMENT:
               THE NATIONAL TECHNICAL INFORMATION SERVICE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON FINANCIAL AND
                         CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2014

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
    
                         U.S. GOVERNMENT PRINTING OFFICE 

91-174 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001  
                          
                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin, Staff Director
               John P. Kilvington, Deputy Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


          SUBCOMMITTEE ON FINANCIAL AND CONTRACTING OVERSIGHT

                       CLAIRE McCASKILL, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          MICHAEL B. ENZI, Wyoming
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
TAMMY BALDWIN, Wisconsin

                 Margaret Daum, Majority Staff Director
                Lydia Westlake, Minority Policy Director
                       Kelsey Stroud, Chief Clerk
                       
                       
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator McCaskill............................................     1
    Senator Coburn...............................................     3
    Senator Carper...............................................     3

                               WITNESSES
                        Wednesday, July 23, 2014

Valerie C. Melvin, Director, Information Management and 
  Technology Resources Issues, U.S. Government Accountability 
  Office.........................................................     4
Bruce Borzino, Director, National Technical Information Service, 
  U.S. Department of Commerce....................................     5

                     Alphabetical List of Witnesses

Borzino, Bruce:
    Testimony....................................................     5
    Prepared statement...........................................    40
Melvin, Valerie C.:
    Testimony....................................................     4
    Prepared statement...........................................    27

                                APPENDIX

Letter submitted by Gene Dodaro..................................    50
Chart referenced in the hearing..................................    51
Letter submitted from Department of Commerce.....................    53
Responses to post-hearing questions for the Record from Mr. 
  Borzino........................................................    56

 
                     A MORE EFFICIENT AND EFFECTIVE

         GOVERNMENT: THE NATIONAL TECHNICAL INFORMATION SERVICE

                              ----------                              


                        WEDNESDAY, JULY 23, 2014

                                 U.S. Senate,      
        Subcommittee on Financial and Contracting Oversight
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:29 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill, Carper, and Coburn.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. This hearing will come to order.
    We are here today to examine a little-known government 
agency, the National Technical Information Service (NTIS). Like 
many government agencies, NTIS began with very good intentions. 
During World War II, President Harry Truman created NTIS to 
distribute captured enemy scientific and engineering documents 
to American industry. In 1950, Congress authorized NTIS to 
collect our government's scientific, technical, and engineering 
reports and disseminate it to industry and to the public.
    From the beginning, Congress intended that the cost of this 
service be borne by its users rather than the taxpayers, and so 
NTIS covered its costs by selling these reports to the public. 
Having a permanent, publicly accessible library of the 
government's scientific research is a sensible idea and one 
that has proven useful to historians, scientists, and 
researchers since NTIS was created.
    Today, however, someone seeking a government report usually 
does not have to go to a clearinghouse or even a library to get 
it. They go to the Internet. Government agencies now make many 
of their most recent technical reports available on their own 
websites and they offer them free of charge. For example, an 
engineer could find a report called ``Modular Electronics for 
Flash Memory Production'' online by just entering the title 
into a search engine, and she could download it for free. But, 
if she wants the same report from NTIS, she will have to pay 
$30, even for an online copy.
    For reasons that we will explore further today, NTIS has 
also been trying to profit by selling documents that have 
little, if anything, to do with scientific or technical 
information, like the ``Armed Forces Recipe Book,'' and even my 
colleague, Dr. Coburn's, ``Waste Book,'' which actually 
includes NTIS as a prime example of wasteful government. Both 
of these documents are, of course, available for free online 
and easy to find with a quick search.
    I understand that the Government Accountability Office 
(GAO), who will testify at today's hearing, has recently asked 
NTIS to stop charging for GAO reports and just provide the link 
to GAO's website. I would like to make part of the record today 
a letter from Gene Dodaro,\1\ the Comptroller General of the 
United States, dated July 18, 2014, specifically directing the 
Secretary of Commerce to provide a link to GAO and to cease and 
desist from selling GAO reports on their website.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator McCaskill appears in the 
Appendix on page 50.
---------------------------------------------------------------------------
    The questions these examples raise, of course, are why 
would anyone buy publications from NTIS when they are available 
for free elsewhere on the Internet. Partly for this reason, 
NTIS's own parent, the Department of Commerce, attempted to 
dismantle NTIS during the Clinton Administration.
    Not surprisingly, NTIS has lost money consistently over the 
last decade on its repository. In order to remain financially 
afloat, the agency began offering services to other government 
agencies, including web hosting, e-training courses, and 
database management, for a price. NTIS does this by using a 
particular provision of its authorizing statute, which allows 
the agency to enter into joint ventures to conduct its 
business.
    How this works is that a Federal agency who wants to obtain 
web hosting services, for example, will enter into an 
interagency agreement with NTIS to provide that service. 
Meanwhile, NTIS enters a joint venture with a private company 
that actually provides the service to the agency. NTIS collects 
a fee from the other agency for providing these services and 
all parties get to avoid the scrutiny and regulations that 
apply to most other Federal contracts.
    I have questions about how and why NTIS is providing these 
services. First, Congress established NTIS to serve as a 
permanent repository of information, not to duplicate the 
functions of the General Services Administration (GSA) or to 
serve as a contractor or pass-through entity for other 
government agencies.
    Second, it appears that the other government agencies are 
using NTIS's services not because it is offering a better value 
than the GSA schedules or another competitively awarded 
contract, but because it allows those agencies to avoid 
complying with the requirements of the Federal Acquisition 
Regulations (FAR).
    I recognize that NTIS does serve an important function as a 
repository and a catalog. There are many reports NTIS holds 
that are not available elsewhere. The Internet is not an 
archive, and search engines can only search for what is 
currently on the Web. And, if a government agency removes a 
report from its website or runs out of space on its servers, 
that research could be more difficult to find without NTIS.
    Our country's most prestigious research universities have 
said that the collection and catalog is valuable. In fact, they 
would be willing to pay in order to maintain its existence.
    But, we have to make sure these reports are archived and 
made available to the public in the most effective and 
efficient way possible. If there are core services, like 
collecting, archiving, and disseminating government information 
that only the government can do, then we may need the 
government to continue to perform that service. But, it is not 
clear to me whether the service needs to be performed by a 
separate agency in the Department of Commerce rather than the 
Library of Congress (LOC), the Government Printing Office 
(GPO), or some combination of the two.
    If there is a legitimate need for these services, let us 
consider paying for it directly and more efficiently rather 
than using gimmicks, like selling web hosting or document 
management to hide the real cost of providing those services.
    There are important questions to discuss about NTIS and its 
future, but they represent even more important questions about 
our government. Can we, as a Congress, come together and cut 
bureaucracy when it is obsolete and duplicative?
    I am hopeful, because Dr. Coburn and I have come together--
and he is a champion on this topic, relentless, like a dog with 
his bone--we have come together to cosponsor bipartisan 
legislation, the Let Me Google That for You Act, which would 
begin to address some of these problems at NTIS. I know Dr. 
Coburn, like me, has hard questions about why we need an NTIS 
authorized in 1950 in a 2014 world.
    I thank the witnesses for being here and I look forward to 
their testimony. Dr. Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Well, first of all, I do not think I could 
have said it any better than you did. I may be a dog after the 
bone, but at my age, I am starting to forget where I left the 
bone. [Laughter.]
    So, I look forward to the witnesses' testimony and being 
able to ask questions. Thank you.
    Senator McCaskill. Thank you.
    And, we are honored to have our Chairman here today. This 
is special. Thank you, Senator Carper, for stopping by. Would 
you like to make any comments for the record before we begin 
the testimony?

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. I love bipartisan cooperation, and I love 
it when two of the most thoughtful Members of our Committee 
collaborate, and I am happy to be here to witness this and 
thank you for inviting me.
    Senator McCaskill. Thank you.
    We will begin with you. Let me introduce the witnesses.
    Valerie Melvin is Director of Information Management and 
Technology Resource Issues within GAO's Information Technology 
(IT) Team, where she is responsible for work examining IT 
issues across the Federal Government. Ms. Melvin has directed 
reviews of Federal IT management modernization programs at 
various agencies, including the Departments of Veterans Affairs 
(VA), Defense (DOD), Health and Human Services (HHS), Labor 
(DOL), as well as the Social Security Administration (SSA) and 
the Office of Personnel Management (OPM).
    Mr. Bruce Borzino is the Director of the National Technical 
Information Service. Mr. Borzino has 31 years of government 
service with the United States Army, General Services 
Administration, and the Department of Commerce. Mr. Borzino is 
also a retired Army Lieutenant Colonel. Thank you for your 
service.
    I would like to thank the witnesses for appearing before us 
today, and it is the custom of this Subcommittee to swear in 
all witnesses that appear, so if you do not mind, I would ask 
you to stand.
    Do you swear the testimony you will give before the 
Subcommittee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Melvin. I do.
    Mr. Borzino. I do.
    Senator McCaskill. Thank you both.
    We will begin with you, Ms. Melvin.

   TESTIMONY OF VALERIE C. MELVIN,\1\ DIRECTOR, INFORMATION 
  MANAGEMENT AND TECHNOLOGY RESOURCES ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Ms. Melvin. Good afternoon, Chairwoman McCaskill, Senator 
Coburn, and Chairman Carper. Thank you for inviting me to 
testify at today's hearing on the National Technical 
Information Service. At your request, my testimony will 
summarize a report that we issued in November 2012, which 
addressed NTIS's operations, the age of and demand trends for 
reports added to its repository, and the extent to which these 
reports are readily available from other public sources.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Melvin appears in the Appendix on 
page 27.
---------------------------------------------------------------------------
    In this regard, our work noted that NTIS offers a variety 
of products and services, as you have noted. Moreover, it 
charges fees for these products and services and is required by 
law to be financially self-sustaining to the greatest extent 
feasible. In fulfillment of its basic statutory function, NTIS 
established a researchable repository of over 2.5 million 
scientific, technical, engineering, and business research 
reports, which it makes available individually as well as 
through subscriptions to its reports library.
    However, our work highlighted the need for attention to 
NTIS's basic statutory role of collecting and disseminating 
technical reports and the fee-based model upon which it 
operates. In particular, we found that from fiscal year (FY) 
2001 through 2011, costs for NTIS's reports and other products 
exceeded revenue for 10 of the 11 fiscal years and the agency 
was financially sustained during this period by services it 
offered to other Federal agencies that were less directly 
related to its basic statutory function.
    More importantly, we estimated that about 74 percent of the 
reports added to NTIS's collection from fiscal year 1990 
through 2011 were readily available from other public websites, 
and of these, we estimated that approximately 95 percent were 
available for free. These included reports available from the 
issuing organization's website, the Federal Government's 
official web portal, USA.gov, among other sources. Most often, 
these reports were readily located at another website through 
the Google.com search engine that we used.
    We concluded that the increasing availability of the 
technical reports from other public sources, and often at no 
cost, coupled with the decline in revenue associated with this 
basic statutory function called into question the viability and 
the appropriateness of NTIS's fee-based model for disseminating 
the reports that it collects.
    Accordingly, we suggested that Congress consider examining 
the appropriateness and the viability of this model to 
determine whether it should be continued, given that many of 
the reports overlap with similar information available from the 
issuing organizations or other sources for free.
    For its part, NTIS acknowledged that the increasing use of 
the Internet to disseminate information posed a challenge to 
its mandate as a self-financing repository. However, the 
Department of Commerce did not indicate whether it had any 
plans to propose changes to the fee-based model.
    Nevertheless, Chairwoman McCaskill, the legislation that 
you, Senator Coburn, and others have recently introduced aimed 
at streamlining the collection and distribution of government 
information can provide an important vehicle for reassessing 
this model.
    This concludes my oral statement. I would be pleased to 
respond to any question that you all may have.
    Senator McCaskill. Mr. Borzino.

  TESTIMONY OF BRUCE BORZINO,\1\ DIRECTOR, NATIONAL TECHNICAL 
        INFORMATION SERVICE, U.S. DEPARTMENT OF COMMERCE

    Mr. Borzino. Good afternoon, Chairwoman McCaskill, Chairman 
Carper, Dr. Coburn. Thank you for your invitation to testify 
today on NTIS's mission and the value it provides the Federal 
Government and the American public.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Borzino appears in the Appendix 
on page 40.
---------------------------------------------------------------------------
    The NTIS's mission is twofold: One, promoting American 
innovation and economic growth by serving as the Federal 
Government's central means of collecting and widely 
disseminating scientific, technical, and engineering 
information to the public and industry; and, second, by 
providing innovative information management solutions to assist 
other Federal agencies in managing and disseminating 
information to their users and constituencies. This mission 
aligns with the mission of Commerce and the Administration's 
goal of promoting shared services to Federal agencies.
    The National Technical Information Act of 1988 and the 
American Technology Preeminence Act of 1991 provide NTIS with 
its unique authorities to serve the public and industry, which 
ensures permanent public access to Federal technical reports. 
Since Federal agencies are not required to make these reports 
permanently available to the public, that permanent repository 
function is the responsibility of NTIS and is as critical today 
in the Internet age as it ever has been.
    NTIS is a self-sustaining agency and it relies solely on 
fees from the provision of products and services, but does not 
receive an annual appropriation from Congress.
    NTIS has amassed a collection of 2.8 million Federal 
publications, covering more than 350 science technical and 
business-related subject areas. These items are perpetually 
available, and approximately 30,000 new titles are added 
annually.
    NTIS is a significant source of Federal technical and 
science information and associated bibliographic metadata for 
Worldwide Web search engines. Search engines can more easily 
find reports and documents that have had the underlying 
bibliographic metadata coding created by NTIS.
    The GAO has reported that up to 45 percent of Federal 
technical reports in any given subject category within the NTIS 
collection are only findable and available from NTIS. NTIS also 
ensures public access to the 26 percent of the reports entered 
into the NTIS collection since 1990 that GAO determined were 
not available from any of the four public sources searched by 
GAO.
    NTIS's joint venture authority permits NTIS and its joint 
venture partners to work directly with a Federal client agency 
to meet specific requirements of the agency. In fiscal year 
2013, NTIS provided $64 million in information management 
services to other Federal agencies, and as a Federal Shared 
Service provider, completed 103 separate service projects for 
39 Federal agencies and departments. My written testimony 
enumerates many of them. In fiscal year 2014, Federal services 
revenue is projected to increase to $88 million.
    NTIS also performs other valuable and unique functions for 
Federal agencies and the public, such as distributing the Death 
Master File (DMF) required by insurance agencies and Federal 
institutions, providing distribution of sensitive Drug 
Enforcement Agency (DEA) controlled substance data for medical 
and pharmaceutical service firms, unlimited access to 
approximately 2.8 million technical reports for libraries, and 
access to one of the most comprehensive collections of 
federally funded science and technology documents for the 
American public.
    As NTIS moves forward, we will continue to adopt business 
processes and technology needed to achieve NTIS's mission in 
the most effective and efficient manner, including NTIS is 
proactively engaged with its advisory board, academia, and 
industry partners to develop a business model to facilitate 
free U.S. public access to electronic scientific and technical 
reports through its library. NTIS is developing this service to 
allow free and open access to electronic technical reports, 
associated bibliographic records, other selected research 
services, and linkage to report data. This new program will be 
launched in October 2014. NTIS advises the public of free ways 
in which to receive a report before processing a request for a 
technical report.
    Thank you for this opportunity today, and I am pleased to 
answer any questions that you may have.
    Senator McCaskill. Thank you, Mr. Borzino.
    Mr. Borzino. Yes, ma'am.
    Senator McCaskill. I want to start with, on your website, 
there is now a banner that says you might be able to get the 
reports that you are going to get here for free other places. 
When did that banner go up?
    Mr. Borzino. That banner went up last week, ma'am.
    Senator McCaskill. After this hearing was announced?
    Mr. Borzino. Yes. It went up after this hearing was 
announced. However, it is part of our program that we have been 
working on the past 15 months in order to announce the public 
access National Technical Reports Library (NTRL).
    Senator McCaskill. Why is it so small, and why is there not 
a large box before you pay to say, have you checked to make 
sure you cannot get this for free?
    Mr. Borzino. It is there on our public front page. It is 
there on our search pages when you go search. And, it is there 
before you go pay.
    Senator McCaskill. Well, I look on the pages, for example, 
on your ``Shipping and Fulfillment Services'' page. The movie 
about how you can buy these services is much larger than the 
advising that you can get this stuff for free. I mean, let me 
give you one example.
    You have the Wage Determination Online. You guys host the 
wagedeterminationsonline.gov site for the Department of Labor.
    Mr. Borzino. That is correct.
    Senator McCaskill. This site provides Federal contracting 
officers with appropriate Service Contract Act and Davis-Bacon 
wage determinations. You are aware the Department of Labor 
offers that information for free?
    Mr. Borzino. They provide it to us to offer to the public.
    Senator McCaskill. That you can get it for free directly 
from them.
    Mr. Borzino. I am aware of that, yes. However----
    Senator McCaskill. And you charge $4,000 for a single user 
subscription for that information.
    Mr. Borzino. That, I am not sure, ma'am.
    Senator McCaskill. Well, you should be.
    Let me ask, your staff does manual Internet searches for 
agency websites to find reports to download?
    Mr. Borzino. I would like to go back to that previous 
question.
    Senator McCaskill. Mm-hmm.
    Mr. Borzino. We do the WDOL as a service for the GSA's 
Integrated Acquisition Environment. I am not aware that we 
charge any fees associated with that program.
    Senator McCaskill. To get a single user subscription to the 
database, our research shows that you charge $4,000.
    Mr. Borzino. That, I am not aware of, ma'am.
    Senator McCaskill. OK. The Government Printing Office 
disseminates Congressional and agency papers to the Nation's 
Depository Libraries. The Government Printing Office considers 
your agency to be the largest source of, quote, ``fugitive 
reports,'' end of quote, meaning reports that they never 
receive and, thus, cannot distribute. Why can we not combine 
your depository function with the Government Printing Office 
depository function?
    Mr. Borzino. Well, we do provide reports to the Government 
Printing Office, so I am surprised that they would make that 
claim that we do not provide them. We provide them to the 
Library of Congress----
    Senator McCaskill. Why do you both----
    Mr. Borzino [continuing]. We provide them to----
    Senator McCaskill. Why do all of you need to exist? Why can 
we not have one repository? Why do we need three, with the 
chance that something gets missed one place or the other? Why 
do we not just do it one place? Would that not make more sense? 
If you were in business, would you not say it should be in one 
place?
    Mr. Borzino. We should do it in one place, and we do. We do 
it at NTIS and that is the mission that the Congress has been 
granting NTIS, and it has been doing that since 1950. And, we 
provide the permanent accessibility. We provide associated 
metadata with all the records so that they can be filed and 
searchable by our public search engines through the Internet 
today. We provide the most comprehensive centralized collection 
which is available. We provide all these services, and that is 
why the American public comes to us.
    Senator McCaskill. Well, I do not think they would come to 
you if they realized how many times you are charging them for 
things they can get for free. I think it is completely 
inappropriate that we are having a government agency provide 
the public with free information in one place, and then the 
government is trying to charge someone in another place for the 
exact same information. These are taxpayers. They own the 
government. We do not own the government. They own the 
government. And, the notion that depending on where you are 
lucky enough to click is going to decide whether or not you pay 
for something is wrong. It is just flat wrong----
    Mr. Borzino. And that is why we----
    Senator McCaskill [continuing]. And we have to stop it.
    Mr. Borzino. And that is why, ma'am, we are implementing 
the public access NTRL program, which----
    Senator McCaskill. Why can you not put up there tomorrow, 
``You can probably get this for free''? ``Chances are 50-50 you 
can get this for free.''
    Mr. Borzino. It is on the Internet.
    Senator McCaskill. Very clear.
    Mr. Borzino. We will go back, ma'am, and take a look at it. 
I will guarantee you that it will be much larger by the end of 
this week----
    Senator McCaskill. Are your reports going to be free 
beginning in October?
    Mr. Borzino. The reports that we have, electronic reports 
and the associated metadata with all 2.8 million records within 
our collection will be available free to the public with a 
simple registration----
    Senator McCaskill. Why can you not make it free tomorrow?
    Mr. Borzino. Because we have to put in place the 
infrastructure to be able to do that.
    Senator McCaskill. Well, it is pretty simple. All you have 
to do is just link over to the website where it is located.
    Mr. Borzino. That is very difficult to do. We tried to do 
that 10 years ago by having persistent URLs that attempted to 
link to all these documents that were available, just like 
USA.gov and other--science.gov and other agencies have 
attempted to do that. However, every time an agency takes a 
report down, moves it, we lose that URL link. It was very 
upsetting--it was very demanding for us to do that. It was very 
upsetting to customers when they came on the site. And, there 
was no effective automated way to do it at that time.
    Senator McCaskill. They are customers, sir, but they are 
taxpayers. So, I think, looking at them as customers is part of 
the problem here. They are taxpayers. They are entitled to the 
government's information for free.
    Mr. Borzino. I look at them as taxpayers, ma'am. I am a 
taxpayer and I understand that.
    Senator McCaskill. OK.
    Mr. Borzino. I would say----
    Senator McCaskill. You are a part of the Department of 
Commerce----
    Mr. Borzino. That is correct, ma'am.
    Senator McCaskill. And, how much did you charge the 
Department of Commerce last year for information that you hold?
    Mr. Borzino. I do not know how--if we charged the 
Department of Commerce for information that we hold or that we 
charged the Department of Commerce for services. I believe last 
year that we charged--or we provide services to the Department 
of Commerce for about $2.6 million.
    Senator McCaskill. Well, here is what we believe, and I 
need you to correct the record if our--it has been difficult 
for us--it is not transparent whether you are a middle man, 
whether you are just hooking people up with private contractors 
and just charging a middleman fee. That is what it looks like.
    Mr. Borzino. I will be happy, ma'am, and we are here 
today----
    Senator McCaskill. Our records show----
    Mr. Borzino [continuing]. To discuss it, and we will be 
happy to come to you----
    Senator McCaskill. OK.
    Mr. Borzino [continuing]. And with your staff Committees or 
to show a full accounting of NTIS and how we operate.
    Senator McCaskill. I have a document here that indicates 
that in 2013, you charged the Commerce Department $288,000 for 
access to your Technical Reports Library.
    [Pause.]
    Do you think that is what Congress intended when they 
wanted you to be self-sufficient, that you would charge the 
agency where you are located $300,000 a year to access the 
information that you hold?
    Mr. Borzino. Ma'am, I believe that is not true. We will 
have to come back with you. I do not believe we do not charge 
the Department of Commerce access to NTRL.
    Senator McCaskill. Well, it is circled, Technical Reports 
Library, and under it, it says Department of Commerce, 
$288,000. And, this is your document.
    Mr. Borzino. Then the document--I believe the document is 
in error, but we will go back and certainly check.
    Senator McCaskill. OK. Doctor--we got the document from 
you.
    Mr. Borzino. I am not disputing that, ma'am.
    Senator McCaskill. OK. Dr. Coburn.
    Senator Coburn. Well, thank you for coming and testifying. 
I have a lot of questions.
    First, for Ms. Melvin, how long has GAO been reporting on 
this?
    Ms. Melvin. Our earliest report was in 2000.
    Senator Coburn. OK. So, 14 years.
    Ms. Melvin. Yes. We reported again in 2001 and then in 
2012.
    Senator Coburn. OK. Thank you. And, Mr. Borzino, what 
percentage and how many of your 2.4 million reports have never 
been requested?
    Mr. Borzino. I do not have that information, Senator. We 
will have to get back with you.
    Senator Coburn. OK. Ms. Melvin, have you all ever charged 
for your reports?
    Ms. Melvin. Our reports are available online for free, the 
electronic versions.
    Senator Coburn. Yes.
    Ms. Melvin. There are instances where we have reports that 
we do deliver and we charge the normal cost of recovery in 
terms of shipping and handling and printing, but not for any--
--
    Senator Coburn. But, all your reports are available online?
    Ms. Melvin. Yes.
    Senator Coburn. All right. You cannot think of a good 
reason, since your reports are all online, why NTIS would 
charge for your reports, can you?
    Ms. Melvin. No. We do have a concern about them charging 
for reports. We do not believe that the Federal Government, and 
NTIS in particular, should be charging for the reports that can 
be obtained online for free.
    Senator Coburn. Yes. One of the things I have tried to do 
with Senator McCaskill is to eliminate duplication. What I am 
struck by as I read the Financial Performance 2009 through 
2013, is how much of the services revenue has grown outside of 
the actual charge for this agency. We are now up through June 
30 of this year to almost 85 percent of the revenue is outside 
of the original charge. It is in services.
    The interesting thing--and I think this should be put in 
the record. It comes from NTIS and I would ask unanimous 
consent to put it in the record.
    Senator McCaskill. Without objection.
    Senator Coburn. This chart shows what they have done since 
2009 to June 30 of 2014. Here is the point I would make, is the 
vast majority of the revenue comes from things that are outside 
their charge, which means--government programs never die. They 
just morph into something else. But, their services revenue in 
2009 was $14 million. Through 9 months of this year, it is $71 
million.
    But, the interesting thing to me is their costs in 2009 
were $27 million and through 9 months of this year they are $78 
million. So, their costs have gone up. They have tripled in the 
last 5 years. And, most of that cost, I assume, is associated 
with the services, not with being a repository for the Federal 
Government.
    So, the question really comes is--and you are not making 
significant more amounts of money than you have over past 
years. In other words, your goal is not to make money. Your 
goal is to cover your revenue, I would presume--cover your 
costs. How do you explain that? How do you explain all this 
additional services business that you have gotten into that is 
obviously offered by other people? How is it that you have done 
that?
    Mr. Borzino. First of all, Senator, we are authorized to 
provide these services. We are an Office of Personnel 
Management (OPM) Shared Service Provider for e-learning and for 
knowledge management, in one area----
    Senator Coburn. Is there nobody in the private sector that 
does any of this other stuff that you offer?
    Mr. Borzino. We partner with over 50 private sector 
companies.
    Senator Coburn. That was not the question I asked you. Is 
there not anybody in the private sector that has the capability 
to do what you do?
    Mr. Borzino. In some of these areas, there is--no, there 
are not----
    Senator Coburn. In some, they are not. But, in the vast 
majority, there is a private sector business that you are 
actually competing with.
    Mr. Borzino. No. We are not competing with the private 
sector. We are complementing the private sector. We are not 
competing with them----
    Senator Coburn. Well, you are generating $78 million worth 
of revenue----
    Mr. Borzino. And, out of that--well, let us take last 
year's revenue. Senator, of the $75 million that we had, 
approximately $50 million of that revenue went back to Joint 
Service Partners and to contractors supporting us. Fifty-
million dollars' worth of that revenue, approximately, was 
returned to the American economy because we had those hundred-
and-three or nine projects that we performed last year for 
other Federal agencies.
    We provide services to other Federal agencies. We are not a 
GSA or a--what, when I was in industry, we called a body shop. 
We just do not provide contracts to them. We bring together the 
parties, both on the Federal side and also from the private 
sector, in order to provide a cost-effective solution to meet 
the needs of the Federal agency. If we were not providing that 
cost-effective solution--the years that you talked about are 
sequestration years. They are years when discretionary funds 
are very tight in all Federal agencies. But, yet----
    Senator Coburn. Two-thousand-nine was----
    Mr. Borzino [continuing]. Or, yes, we are providers.
    Senator Coburn. Two-thousand-nine was not a sequestration--
--
    Mr. Borzino. Eleven, 12, and 13, Senator, were----
    Senator Coburn. Yes.
    Mr. Borzino [continuing]. And that is where our major 
growth is. In 2009, the major growth was because the Department 
of Education had a distribution program for its Federal Student 
Aid products, and they decided after 9 years that they were 
paying a private contractor too much. They opened it up for 
competition. We applied. They selected us to do that service. 
From that the time we began that service in fiscal year 2010 to 
today, we have lowered the annual cost for that program more 
than 40 percent, or $4 million per year as of today.
    Senator Coburn. OK. On the----
    Mr. Borzino. Now, these services that you are talking 
about, and also Madam Chair, were clear services that are 
recognized and authorized by the National Technical Information 
Act of 1988 and the American Preeminence Act of 1999. We do not 
do anything that is not authorized by or within our 
programmatic and statutory authorities. They are all involved 
in providing information management support to other agencies.
    We have two levels of legal review. Even after I make the 
ultimate decision that we might go in and do a project, it goes 
to NIST and their legal department looks at it from a 
programmatic review perspective. It then goes to the 
Department, to the General Law Division, and they look at it 
from the statutory review perspective. And, if they come back 
and say it is not within our statute, then the work does not 
get done.
    Senator Coburn. All right. So, I have some other 
questions----
    Mr. Borzino. And I would just like to clarify----
    Senator Coburn. Let me ask my questions, because I have 
limited time. What percentage of the 30,000 add-ons in this 
last year are available on the Web?
    Mr. Borzino. The 30,000----
    Senator Coburn. You testified just earlier that you added 
30,000 pieces of unique information this past year. That was in 
your testimony. And, my question to you, of the 30,000 
additions, how many of them are available on the Web?
    Mr. Borzino. That, I do not, Senator, because they may be 
all available because they are probably mostly electronic 
today.
    Senator Coburn. OK.
    Mr. Borzino. Now, they may not come from this fiscal year. 
They probably came from previous fiscal years. But, yes, I 
would grant that they are probably all available on the Web and 
that is why we are moving to the public access NTRL program.
    Senator Coburn. So, that raises my next question. Why in 
the world are you all--if you are good at what you do, why are 
you 10 years behind everybody else in this country of moving 
stuff to the Web? You have this big plan that you are going to 
introduce, you are going to put on, you are going to develop. 
Why was it not developed 10 years ago?
    Mr. Borzino. Because we did not have the resources to do it 
10 years ago because we had to put in place--we had to go from 
our--in 2007, 2008, 2009, where we lost terrible amounts of 
money because we were a printing-based and paper-based and 
microfiche distributor to get to the point today where we are 
able to have this online capability of doing it, like through 
the National Technical Reports Library in 2009, our Federal 
Depository Services.
    And, if I can go back to an earlier statement, the reason 
why we--the past couple years, we do not have a lot of profit 
that shows is because in the past 2 years, we have made almost 
a $4 million investment in our infrastructure. So, last year, 
we put $1.7 million into the infrastructure. This year, we put 
$1.3 million in the infrastructure, and that has taken the 
profit down, which in, I believe, fiscal year 2012 and 2013 was 
about $2 to $3 million each year, down to where we are this 
year.
    That is the investment we are making in order to continue 
to provide the mission that you have provided to us, a mission 
of which we--yes, we agree, we cannot cover the cost to do the 
repository mission, yet NTIS still goes ahead and does the 
mission, and we also provide very good Federal services that 
are desperately needed and desired by these other Federal 
agencies, not skirting contract or procurement law, because we 
do hundreds of contracts a year.
    Senator Coburn. I will come back for a second round.
    Mr. Borzino. Ma'am, could I clear up----
    Senator McCaskill. Sure.
    Mr. Borzino. We have an answer to your question.
    Senator McCaskill. Absolutely.
    Mr. Borzino. That is called the Iraqi Science and 
Technology Information Repository, which is a joint program 
between the Department of State, the Department of Commerce, 
and NTIS as the partner, along with a private partner in 
Tennessee. The purpose of that program was to provide the Iraqi 
government a repository service that they could use to have 
their central repository, which they do not have currently, 
within the Ministry of Science and Technology. That is what the 
$288,000 of charges were for. So, it was that service project, 
of which I just received an announcement this morning. Next 
week at, I believe, at the Iraqi Embassy, it is going to be 
unveiled, if you will.
    Senator McCaskill. OK. Let us get back to a couple of 
questions.
    On the NTIS website, you advertise a bunch of services, 
from shipping and fulfillment to government web and system 
hosting. For example, some of the language on your web team is, 
``We can create your order processing website or link to your 
existing site to provide your clients with the ability to order 
your publications and outreach materials online.'' Now, is this 
being directed to government?
    Mr. Borzino. Well, we provide a number of agencies, out of 
our----
    Senator McCaskill. No. When you say----
    Mr. Borzino [continuing]. Of services----
    Senator McCaskill [continuing]. ``Provide your clients,'' 
are you saying you are advertising to government agencies that 
you will do this for them. You are not advertising to the 
private sector.
    Mr. Borzino. That page is, yes, where the service pages are 
is for the Federal agencies to know about how the services that 
we can provide for them. That is correct.
    Senator McCaskill. OK. So, the services that government 
provides, it is weird to call taxpayers ``clients.'' That 
implies a paying relationship. ``We can create your order 
processing website or link to your existing site to provide 
your clients the ability to order your publications and 
outreach materials online. Plus, our customer service team 
supports your customers' calls and inquiries on the phone or 
via e-mail,'' which is just pure answering the phone for 
government agencies.
    Mr. Borzino. No, it is not, ma'am. Well, first of all----
    Senator McCaskill. Well, wait----
    Mr. Borzino [continuing]. That is----
    Senator McCaskill [continuing]. Plus, let me read it again. 
This is what your website says. ``Plus, our customer service 
team supports your customers' calls''--those are taxpayers 
calling into the government--``and inquiries on the phone or 
via e-mail.'' So, it appears you are selling customer service 
to other agencies, correct?
    Mr. Borzino. No. The customer service that we provide, if 
we provide it--first of all, we do have a Customer Service 
Center and that is to support NTIS and the repository 
functions.
    Senator McCaskill. Right.
    Mr. Borzino. Let us take an example of what--first of all, 
that is a poor choice of words, and I agree. It should be 
American taxpayers. It should be something. But, it should not 
say ``client.'' You are absolutely right there.
    Let us take the Education Department. The Education 
Department is a distribution program that we do for the Federal 
Student Aid Program for them and for all their distribution 
across their 28 offices. We provide that entire service to them 
from the point of the matter of putting up the website, which 
is branded for the Department of Education, to the point that 
the public comes in and orders it. If the public wants to 
discuss a publication, they call an NTIS Call Center, which is 
located in the facility that provides the service, our 
warehouse in Brandywine, Maryland, and we then take the order. 
We provide the entire service for the Department of Education.
    Senator McCaskill. OK. That is the point I wanted to make. 
So, how much of these services that you are providing--like 
shipping and fulfillment and distribution--how much of that are 
you providing and how much are you the go-between with a 
private contractor?
    Mr. Borzino. The services, I would have to get back to you 
in each case. But, for example----
    Senator McCaskill. I need a ballpark percentage----
    Mr. Borzino [continuing]. In the distribution----
    Senator McCaskill [continuing]. You have to know what 
percentage. You will bring in $75 million in a year on this 
type of stuff. Of that $75 million you brought in last year, 
how much of that is a fee you are getting for connecting a 
government agency with a private contractor?
    Mr. Borzino. No. We do not connect them, ma'am. We are the 
program managers. We provide--for example, the distribution 
program that I talked about for Education, pretty much all the 
distribution programs that we have in the list there--
Department of Education, PBGC, the other information I gave 
when I briefed your staff--that is all done by NTIS with 
contractor support as part of NTIS.
    Senator McCaskill. OK. Well, that is what I am trying to 
get at----
    Mr. Borzino. There is no----
    Senator McCaskill. I want to get at the contractor support.
    Mr. Borzino. There is no partnership----
    Senator McCaskill. Here is what I cannot figure out. I 
mean, I am sorry I sound so impatient, but I spend a lot of 
time on Federal Acquisition Regulations. Dr. Coburn and I have 
worked on a lot of hearings where there are not very many 
people in the audience talking about Federal Acquisition 
Regulations and what is good about them and what is bad about 
them and reforming them.
    GSA offers most of the services that you offer, agreed?
    Mr. Borzino. GSA offers contracting services, of which, 
when I was in the private sector, I used.
    Senator McCaskill. Right.
    Mr. Borzino. They do not offer the services that we talk 
about----
    Senator McCaskill. We cannot find any IT services you offer 
that GSA does not offer. They offer web hosting. They offer 
fulfillment. They offer all of those things. What IT services 
are you providing that----
    Mr. Borzino. They only provide the contract vehicle, 
ma'am----
    Senator McCaskill. OK----
    Mr. Borzino [continuing]. To get to a contractor, a vendor 
who can provide those services.
    Senator McCaskill. OK.
    Mr. Borzino. We provide a partnership with the agency. That 
is the unique thing. It is a Joint Service Partnership. That is 
what the law says. It says, we provide this partnership. We 
provide this Joint Venture Partnership. We provide these unique 
solutions. We go to the Department of Agriculture (USDA) right 
now and they wanted a system, a talent management and knowledge 
management system that they could put across all 28 or 29 
bureaus. They had a vendor-provided system, but it was just a 
learning management system. It did not meet the needs for what 
they want.
    Now, if you wanted to do that through GSA, you would have 
to scope out this whole program. You would have to have all 
your requirements definitized.
    Senator McCaskill. Yes.
    Mr. Borzino. Under the partnership program that we have, we 
work with the partner to best find the solution. It is more 
flexible----
    Senator McCaskill. And, you are more expensive than GSA.
    Mr. Borzino. No, we are not, because----
    Senator McCaskill. Yes, you are.
    Mr. Borzino. No, we only charge for the services that we 
provide. GSA provides--yes, we charge a fee on our labor that 
you are probably referring to that is 10 percent. That is the 
only fee we charge. GSA provides a fee, depending on the 
contract size, I believe, or at least when I used them 10 years 
ago, between 2 to 4 percent, and all they do is provide you 
that contracting service. We provide you the program 
management. We are in the game.
    Senator McCaskill. OK. But, you do not have to go through 
FAR.
    Mr. Borzino. We follow the legal--we follow the joint 
venture--we follow all statutes and law within the U.S. 
Government. When we contract, we follow the FAR.
    Senator McCaskill. You are setting up your own----
    Mr. Borzino. Now----
    Senator McCaskill. You are setting up your own contracting 
vehicle outside of the Federal Acquisition Regulations, yes or 
no?
    Mr. Borzino. No. It is not a contracting vehicle, ma'am. It 
is a Joint Venture Partnership.
    Senator McCaskill. OK. You----
    Mr. Borzino. It is authorized underneath both----
    Senator McCaskill. You are managing a contract that the 
services are being provided by a private vendor.
    Mr. Borzino. We are managing a program, a joint venture. It 
is a public-private partnership----
    Senator McCaskill. What percentage of the labor--of the $75 
million that you got in revenue last year, the labor that was 
provided, the services that were provided for that $75 million, 
what percentage of those services did you, in fact, perform? 
How many employees do you have?
    Mr. Borzino. We have 101 employees currently, ma'am.
    Senator McCaskill. OK. You cannot sit there and tell me 
that 101 people are providing all of these services on shipping 
and fulfillment and answering the phone and providing 
documents. You, in fact, are connecting Federal agencies with 
private vendors and not using the FAR.
    Mr. Borzino. That is what GSA does, ma'am. What we do is we 
provide the detailed program management and support if that is 
all we are doing in that particular program. In many of those 
programs, we provide much more than that, including the web 
hosting, the other services that we have within our 
capabilities. That is the greatness, if you will, the advantage 
of using this public partner capability that we were granted by 
Congress. And----
    Senator McCaskill. OK. Well, we----
    Mr. Borzino [continuing]. In 1989, when we were granted 
that, we put it in the Public Register on how we were going to 
do it, and we follow it to this day.
    Senator McCaskill. I think I have common sense, and I think 
I understand what is going on here, and if it is as opaque as 
it appears to be, that just means we need to do more work. I 
need to see all these service contracts. I need to understand 
the scope of what you are performing and I need to figure out 
how 101 people can do it, because it looks like this is a work-
around the FAR, plain and simple and that agencies are flocking 
to you even though 10 percent is higher than what they are 
getting charged at GSA because they can avoid the FAR.
    Mr. Borzino. That is 10 percent on the labor that we 
provide. That is the only fee that we normally charge.
    Senator McCaskill. But, you cannot tell me what percentage 
of the labor you provide.
    Mr. Borzino. I have to go back and look at the individual 
programs that we have.
    Senator McCaskill. Dr. Coburn.
    Senator Coburn. What percentage of your total costs are 
labor costs?
    Mr. Borzino. Approximately, this year, about $10 million, 
just for Federal labor costs.
    Senator Coburn. And you have how many contractors?
    Mr. Borzino. We have a correlate of about 75 contractors.
    Senator Coburn. And what percentage of that is labor costs?
    Mr. Borzino. I think it is around $5 to $6 million, but I 
am not sure. It may be a little bit higher than that.
    Senator Coburn. So, on these numbers that you have for us 
in 2013, less than 25 percent of your costs are labor costs, of 
the $64 million?
    Mr. Borzino. I would have to go back and look at that, 
Senator.
    Senator Coburn. Well, I would like for you to answer that 
for the record, if you would.
    Mr. Borzino. As I mentioned, Senator, the $50 million is 
what I do know that came out of the cost that we distributed, 
so----
    Senator Coburn. Of the $75 million that you are going to 
have this year in terms of services, what percentage of this 
will be paid by Federal agencies?
    Mr. Borzino. All the service revenue comes from Federal----
    Senator Coburn. All right. And, what percentage of the 
revenue----
    Mr. Borzino. I would take that--yes, all the Federal 
services revenue that we define that way, yes, comes from other 
Federal agencies.
    Senator Coburn. All your services revenue comes from 
Federal agencies. Is that your testimony?
    Mr. Borzino. Last year, I know the service revenue was $64 
million.
    Senator Coburn. That is not my question. All your service 
revenue comes from Federal agencies, is that true or not true?
    Mr. Borzino. I believe it is true.
    Senator Coburn. OK. What percentage of your service 
revenues come from the Department of Education? How big is the 
Student Loan Program?
    Mr. Borzino. Senator, I do not have that information----
    Senator Coburn. Well, you all should have----
    Mr. Borzino [continuing]. In front of me----
    Senator Coburn. Somebody in your staff knows that answer.
    Mr. Borzino. Well, we gave it to you, Senator, because we 
broke out in the information that we gave to you--the 
Department delivered to you a couple of weeks ago had it broken 
out. And, also, in the information that was given yesterday to 
the Subcommittee, it was all detailed and broken out for at 
least the last three fiscal years. We are very transparent. 
Please come down and look at what we are doing. We are not 
hiding anything.
    Senator Coburn. Well, for 2013, it shows that you billed 
the Department of Education $328,000, is that right?
    Mr. Borzino. It cannot be for services, Senator, because 
the Education Distribution Program alone is about $5.5 million.
    Senator Coburn. All right. So, what you sent us, in terms 
of your total--this is the nature of Federal agency services 
provided in 2013, and I think this is your sheet. That shows 
the Department of Education. And, then, in answer to our 
questions, the latest fiscal year available, the name of each 
Federal agency, and how much they spent. So, 10 percent of your 
revenue is coming from the Department of Education, correct? 
And, 20 percent of your--well, it is $6,323,000. And, the 
Department of Agriculture, $14 million. The Department of 
Justice (DOJ), $4 million. Office of the Secretary of Defense 
and Defense agencies, $12 million. And, the Social Security 
Administration, $10 million. I suppose that is the Death Master 
File for Social Security?
    Mr. Borzino. No, that would not be the Death Master File. 
That is the SSA's special notice option. We actually pay SSA in 
order to get the Death Master File from them. We pay them a fee 
in order to get that.
    Senator Coburn. And, do they give you the Death Master 
File?
    Mr. Borzino. They do not give it to us. We have----
    Senator Coburn. You buy it from them.
    Mr. Borzino. We pay them a fee, yes, even though we 
distribute it for them.
    Senator Coburn. It is interesting. We cannot get them to 
give the Death Master File to other agencies so we can be 
accurate on what we are doing in other agencies, yet you are 
buying it from them?
    Mr. Borzino. It is a weird relationship. However, you asked 
for the last 24 years. I do not know if we bought it from them 
all the time, but, yes, we do provide them--I believe that is 
correct. Can you affirm that? Yes. We do provide them a fee----
    Senator Coburn. Can other agencies come to you and get the 
Death Master File?
    Mr. Borzino. It is a preparation of what they do in order 
to deliver it to us.
    Senator Coburn. OK.
    Mr. Borzino. It in the raw data that we can distribute to 
other agencies----
    Senator Coburn. Can another agency come to you and get the 
Death Master File?
    Mr. Borzino. Other agencies do come to us and get the Death 
Master File.
    Senator Coburn. All of them? Is there any agency of the 
Federal Government you will not give the Death Master File to?
    Mr. Borzino. No. Well, let me clarify that. I know that 
there are five or six agencies that get it directly from SSA.
    Senator Coburn. I know, but is there any Federal agency 
that cannot get the Death Master File from you?
    Mr. Borzino. I want to be clear to answer your question. 
The agencies do get it from us, correct? They pay a fee to do 
it. So, we do not distribute it for free.
    Senator Coburn. OK. But, the question I am asking you----
    Mr. Borzino. Yes.
    Senator Coburn [continuing]. Is there any agency that 
cannot come to you and pay a fee and get the Death Master File?
    Mr. Borzino. We would be happy to make it available for 
every Federal agency.
    Senator Coburn. OK. And, what do you pay for that Death 
Master File?
    Mr. Borzino. It depends whether it is a raw data file or it 
is----
    Senator Coburn. Well, give it to--I do not care which way.
    Mr. Borzino. I do not----
    Senator Coburn. Somebody knows. What do you pay?
    Mr. Borzino. We will get back to you on that, Senator.
    Senator Coburn. OK. How much revenue will you lose starting 
in September when you do not charge for reports that are 
available electronically?
    Mr. Borzino. We are definitely at a risk of some revenue, 
but the basis of the model which we are going to is we are 
going to a model, if you will, like the Wall Street Journal, 
the New York Times, where you have a section which is available 
for free and then you have other services which are available 
for a subscription.
    Senator Coburn. But, I thought your testimony was is the 
things that are online and available----
    Mr. Borzino. They will be.
    Senator Coburn. So, you have no idea how much revenue you 
are going to lose off that? You have $7,688,000 already this 
year off of reports, product revenue. What percentage is that 
going to decline?
    Mr. Borzino. We are still working on the business numbers, 
if you will, Senator.
    Senator Coburn. So, you have made the decision to do that, 
even though you do not know the business numbers associated 
with it?
    Mr. Borzino. We have some costs associated with it. 
Unfortunately, the Associate Director who manages this program 
has been out the last 5 weeks because of sciatic nerve program 
and he just came back.
    Senator Coburn. OK. So, you will get that to us?
    Mr. Borzino. Yes. But, we are at risk, if this model does 
not work, of losing some additional money within the technical 
products line. However, we feel it is very important--you have 
spoken, OK. We have heard that you would prefer us to make 
things available for free and we are responding to that. We 
started 5 years ago moving in that direction and we have come 
to this point, and I will tell you, and I could show you in the 
minutes, that we started with our advisory board more than 15 
months ago to look at this----
    Senator Coburn. Yes.
    Mr. Borzino [continuing]. Based on the administration's 
open access, open data plans, wanted to make more available. We 
got the GAO report----
    Senator Coburn. Actually, you have not----
    Mr. Borzino [continuing]. So, we----
    Senator Coburn. You have not heard from us, because our 
goal is to eliminate you as an agency. That is our goal.
    Mr. Borzino. I see.
    Senator Coburn. And, what cannot be found available 
somewhere else, put it in a small closet in the Department of 
Commerce----
    Mr. Borzino. I would just----
    Senator Coburn [continuing]. And, that is my goal, 
because--I took three interns and asked you for your top 20 
requests and we found all but four of them, which were manuals, 
Federal Government manuals, available online within 30 minutes.
    Mr. Borzino. OK----
    Senator Coburn. So, the fact is, 75 to 80 percent of 
everything that you supply in terms of reports or products is 
available online today, and your biggest costs have nothing to 
do with supplying that. Your biggest costs have to do with all 
these other programs that you are running in conjunction with 
contractors outside of the FAR Regulations that we see as very 
important.
    Our biggest problem in the Federal Government is 
acquisition. This lady has been a dog on that, and it is a 
mess. And, my message to you is not about offering it for free. 
My message is, how do we shrink the size of the Federal 
Government so that the kids that are following us will have a 
standard of living equivalent to the average pay of your 
organization, which they are not anywhere else.
    Mr. Borzino. Can I respond, please, Senator?
    Senator Coburn. Sure.
    Mr. Borzino. Or, Doctor. If you look at last year, we 
provided 103 or 109 service projects to the 39 agencies and 
departments I talked about. You are implying that they did not 
get anything of value out of----
    Senator Coburn. No, I am saying they could have done it 
another way inside the Federal Acquisition Regulations and got 
it done.
    Mr. Borzino. In some of those cases, they may not have, 
because they would not have been able to come up with the 
unique partnership and the methodology that we have put in 
place. Public-private partnership. It is a sharing. It is a 
sharing on both sides.
    Senator Coburn. You are telling me----
    Mr. Borzino. There is a risk on both sides.
    Senator Coburn [continuing]. That other agencies cannot do 
public-private sharing and partnerships? They do it all the 
time.
    Mr. Borzino. Well, I do not know that they do it all the 
time----
    Senator Coburn. Well, we do. We have hearings here all the 
time where we see the Federal Government contracting with 
private to do private-public partnerships to accomplish goals 
for the Federal Government. So, it is you may have some unique 
areas associated with the data that you have. The most amazing 
thing coming out of this hearing today is they have the Death 
Master File and four agencies in the Federal Government cannot 
get it from the Internal Revenue Service (IRS).
    Mr. Borzino. Well, we will be happy to provide it, Senator.
    Senator Coburn. I yield.
    Mr. Borzino. We do everything, Senator--if I can close--in 
the fact that we are not skirting acquisition regulations. We 
are not trying to put a process that does that----
    Senator McCaskill. I do not think----
    Mr. Borzino. We are trying to provide a service within our 
capabilities----
    Senator McCaskill. I think you are.
    Mr. Borzino. It so happens, we are doing a good job in the 
last 5 years that more and more agencies want to come to us, 
and they come to us during times of sequestration and times of 
reduced budget. And, we are offering them that ability in a 
different manner, because, as you know--and, I was an 
acquisition officer. That was part of my responsibilities. I 
was in the Acquisition Corps in the Army and that is what I 
did. So, for the last 10 years of my career, I was in research 
and developing information systems, and I understand the 
acquisition community both as a user in DOD and also in the 
private industry, because, as I mentioned before, I used the 
GSA acquisition vehicles in order to do business. I understand 
that.
    I am telling you that it is not the same. I will be happy 
to sit down and explain to you how we do it and make it very 
transparent that we are not skirting acquisition rules. Maybe 
we have a new model that you might want to consider.
    Senator McCaskill. That may be true, and this is not 
personal. This is about duplication. This is about charging 
taxpayers for information they can get for free, and this is 
about one part of government not having to live by the same 
rules that another part of government has to live by. It is 
just that simple. And, no one is ascribing evil motives here. I 
am sure that you are a fine American, and everyone who works 
with you and works in that agency, all 101 of them, and 
probably even the contractors that all work there are great, 
because I think there are some great contractors out there.
    This is about whether or not this is the way we should be 
doing business, and let me ask you this. You referred to your 
statutory mission. Your statutory mission was very clear, that 
it is supposed to be a clearinghouse of scientific, technical, 
and engineering reports. That was Harry Truman's idea, that the 
scientific information that we had developed through an 
enormous sacrifice by the American people through the war would 
be able to be translated into commerce. Great idea. Do you 
think Harry Truman envisioned that you would be offering the 
Air Force Recipe Cookbook as part of that?
    Mr. Borzino. The Air Force Recipe Cookbook was offered 
because at a time when DOD did not have the capabilities of 
making it available and there was a demand for it by the 
restaurant and services industries----
    Senator McCaskill. I do not know which is more scary to me.
    Mr. Borzino. So, in any event, we did it at that point. 
Under this new program, it will now be available free.
    Senator McCaskill. Did you just say the Department of 
Defense did not have the capability of providing a cookbook?
    Mr. Borzino. The Department of Defense, as you know, 
through DTIC did not normally provide their publications to the 
public. You had to be either a military member, a dot-mil 
address--and this is anecdotal because, I was there, so it may 
not be true today. My staff tells me that we were asked 
specifically at one point by the Department of Defense to make 
that available because it allows restauranteers and others to 
do large recipes and that----
    Senator McCaskill. Well, that makes----
    Mr. Borzino [continuing]. That is why it is available.
    Senator McCaskill. Who decides----
    Mr. Borzino. That is why we have it. However, now, under 
the current program, since it is electronic, it will be made 
available free.
    Senator McCaskill. Right.
    Mr. Borzino. You can look at the 2.8 million documents that 
we have in the collection. Certainly, Senator, there is a 
number that you would say do not meet today's requirement of 
science and technical. I do not doubt that.
    Senator McCaskill. Well, but that is to your mission. How 
did you get off your mission?
    Mr. Borzino. And we are going back to make sure that those 
things--first of all, we have--ensure that what we bring into 
the collection now firmly meets the scientific, technical----
    Senator McCaskill. Who is making that decision?
    Mr. Borzino. My staff here is making that decision by 
ensuring that the catalogers and indexers who go out and bring 
things in follow specific guidelines that we have had in place 
but maybe have not been followed at all times.
    Senator McCaskill. Have you included reports acquired from 
private sector organizations?
    Mr. Borzino. Private sector--excuse me?
    [Off microphone conversation.] American Library Special 
Library Association, I guess, cataloging and indexing.
    Senator McCaskill. OK. That is also not within your 
mission, correct?
    Mr. Borzino. My staff is telling me it is in science and 
technology.
    Senator McCaskill. OK. I did not realize that this was 
supposed to be a repository for private documents. I thought 
this was just supposed to be government documents.
    Mr. Borzino. I will have to get back with you.
    Senator McCaskill. OK.
    Mr. Borzino. I am not----
    Senator McCaskill. That would be great, if you would.
    Mr. Borzino. I am not sure, Senator. If you can pose that 
question--I am not sure exactly what the question is----
    Senator McCaskill. Well, the question is whether or not you 
all are out harvesting documents in the private sector in 
addition to harvesting documents from the public sector. And, 
if so, where did you get the authority to do that as part of 
this agency?
    Mr. Borzino. No. We are not doing that.
    Senator McCaskill. OK. I need a definitive answer about 
what, if any, private entities you are, in fact, archiving or 
keeping a repository of private documents and how that came 
about----
    Mr. Borzino. None that I am aware of, ma'am. If we have 
harnessed by mistake a private industry or private sector 
document, then that is incorrect. Then, we should not be doing 
that. Do we do it as a service for anybody else or in order to 
try to add things to the collection outside what we are 
supposed to be doing by statute? No.
    Senator McCaskill. Part of me is proud, in a way, because 
you all have shown a private sector mentality. I think somebody 
sat and figured out that there was going to be dwindling 
revenue to support a government agency from the original 
mission that was designed because of a change in technology. 
The very technology that drove the entire purpose of your 
organization was going to make you obsolete. So, in order to 
sustain the existence of your agency, you had to find a new 
source of revenue, and in order to find a new source of 
revenue, you had to figure out a way that you would bring in 
money for providing other services besides documents that 
people could get for free.
    And, so, to do that, you have used the euphemism, ``a 
public-private partnership,'' when, in reality, with a staff 
the size of your staff and a budget the size of your budget, 
that is facilitating Federal contracting, whether you all want 
to call it that or not. You all are not doing the work. You 
cannot do the work with 101 people. You are contracting with 
private industries, and you call it a public-private 
partnership. At GSA, they call it FAR. They call it 
acquisition. You call it a public-private partnership.
    And, what I need you to do, for the record, is I need you 
to give me examples of some services you are providing Federal 
agencies that they can get nowhere else, not your, oh, it is a 
public-private partnership because, somehow, because you guys 
are acquiring the private entity that is doing the work that 
that makes it a public-private partnership. When GSA acquires 
the private entity that is doing the work, you are calling that 
just straight acquisition. To me, a duck is a duck is a duck. 
It is walking like a duck. It is quacking like a duck. I think 
it is a duck.
    And, therefore, I need you to explain in very transparent 
terms, what are the services you are providing that a Federal 
agency can get nowhere else, because I think that is your only 
shot of holding on to this agency long-term, because more and 
more people that are getting elected are realizing we cannot 
continue to have payrolls without a purpose. We just cannot do 
it, and especially since your customers are, in fact, the 
taxpayers.
    The ones who are paying you, the agencies, that is all 
taxpayer money. The people who are buying reports from you, 
those are all taxpayers. So, it is almost like it is this weird 
agency that is getting money from the public on one end and 
getting money from the public on the other end and pretending 
that, somehow, you all are providing a model that is the 
ultimate efficiency.
    Mr. Borzino. May I respond?
    Senator McCaskill. Yes, you may.
    Mr. Borzino. OK. First of all, we are authorized to enter 
into these private sector partnerships by law. So, Congress 
passed a law, the National Technical Information Act of 1988, 
as well as the American Technology Preeminence Act of 1991. 
Yes, there is a base statutory the GAO referred to, I guess, 
801799, whatever it is, from 1950, that authorized the 
Secretary of Commerce to establish a clearinghouse.
    In 1988 and 1991, and by other changes to the law, you 
authorized us to enter into Joint Service Partnerships. These 
Joint Service Partnerships were to provide innovative 
information solutions to other public agencies, to come up with 
these solutions and then to provide them to other public 
agencies. We started doing that in 1989 and we have a history 
since then of the past 25 years.
    We provided FedWorld, which was one of the first websites 
of the Federal Government, in the early 1990s. We provided the 
IRS tax site for--the first IRS tax site in the middle 1990s. 
In the late 1990s, we developed, with a joint partner, we 
developed the Department of Defense Defense Acquisition 
University (DAU) first learning management system, and for that 
reason, it was why in 2004 OPM came to us and designated us an 
e-training learning--knowledge management service partner.
    Senator Coburn. But, here is the question----
    Mr. Borzino. So, we have storied history----
    Senator Coburn [continuing]. That follows up on that.
    Mr. Borzino [continuing]. Of doing these services.
    Senator Coburn. Could none of those have been done without 
your agency being in existence? That is the question we are 
asking. They all would have happened through regular 
acquisition process.
    Mr. Borzino. Can I give you another example, since the 
Senator asked, the Chair asked? Specifically, I would like to 
give you an example of the Social Security Special Notion 
Option (SNO) program. This was a program which was mandated to 
SSA by court order in San Francisco, I believe, that they were 
to provide all their notices that they had been providing to 
sight-impaired individuals just regular printed and then you 
could call up and they would read it to you. The court said 
that that is not good enough. You need to provide them in 
different formats, such as Braille, 508 compliant CDs, large 
print, and audio.
    Senator McCaskill. But, there is no reason another Federal 
agency cannot provide that. There is no reason that the----
    Mr. Borzino. No. A Federal agency does not have the 
capability because it requires the Braille, it requires the 
audio to be able to do that. It requires these expertise.
    Senator McCaskill. Well, the GSA----
    Mr. Borzino. Now, we happen to have two partners----
    Senator McCaskill [continuing]. Could have contracted for 
that with a----
    Mr. Borzino [continuing]. We have had two partners that 
happened to be Small Disadvantage Business owned by blind 
gentlemen who were doing scanning and digitization----
    Senator McCaskill. But, they not have done business with 
the GSA, Mr. Borzino? Why would they not have done business 
with the GSA? Why could they not, through the Federal 
Acquisition Regulations and acquisition processes, they would 
have put out a contract. By the way, this is what they do at 
the Department of Defense. This is what they do in Homeland 
Security. They put out a scoped contract. We need somebody to 
provide Braille information. We need somebody to answer phones. 
We need somebody to provide--this is the point.
    The point is not that you are not doing good work. No one 
is here to malign you in terms of the work you are doing. This 
is about duplication, about a drifting mission that went from 
providing reports that were not easily available to realizing 
that, now, these are easily available. We are going to have to 
start web hosting or we are going to have to start shipping or 
we are going to have to get into big wholesale printing 
operations, most of which you are contracting.
    Mr. Borzino. Ma'am----
    Senator McCaskill. That is the point.
    Mr. Borzino. No, I would like to clarify the point that we 
just did not start this 3 years ago, 5 years ago. I gave you 
examples, and we can show you, I think, breaking out the 
revenue, to show you that we have been providing these services 
since as early as 1989.
    Senator Coburn. But, it has increased 69 percent since 
2009.
    Mr. Borzino. Principally because of some large programs 
that came in, such as the Department of Education, at that 
point, about $9 million. The SSA SNO program comes in. It has 
been floating somewhere between $9 and $12 million. Yes, there 
were some large projects that came in that certainly increased 
the revenue. But, also, we went from about maybe 20 projects to 
30 projects up to over 100 projects.
    Senator McCaskill. Well, the one thing we are going to do 
is we are going to drill down on those large projects and we 
are going to look at the contracting process. We are going to 
look and see if FAR was complied with. We are going to look and 
see who those contractors are and if they are doing business 
doing the same thing in other agencies and if the price that is 
being paid is the same, because I am willing to bet, before all 
the dust settles, that there is an upcharge to avoid the FAR, 
and I am willing to bet the Federal agencies realize they can 
avoid the upcharge for avoiding the FAR by using your agency.
    That does not make you bad guys. That makes you providing 
the service outside of the Federal Acquisition Regulations. 
Now, I might be wrong about that, but we are going to drill 
down and figure it out. We are going to look at the large 
contracts you have and the services you are providing and the 
private contractors that are providing those services and we 
are going to drill down on the costs, and I guarantee you those 
services are being provided somewhere else in government, very 
similar, and we are going to look at the cost there and we are 
going to try to figure out apples-to-apples why it is better 
that you are doing this rather than GSA.
    And, if, in fact, your model is better, if all the 
contracting procedures are being followed, if, in fact, you are 
crossing the ``t''s and dotting the ``I''s and scoping your 
contract, if you are doing performance measurements on your 
contractors, if you are not giving them bonuses when they do 
not deserve it, if you are doing things better than GSA, then I 
am all for you guys taking over the whole kit and caboodle. I 
have no problem with that. I have no problem with blowing you 
up big time and shutting down GSA. But, we cannot have two, 
because it is not fair. And, frankly, it is not transparent, 
and that is the problem.
    So, I want the people who work for you to know, we are not 
after you because you are bad guys. We are after you because 
this is not a good way to run a government. It is duplicative, 
it is not transparent, and it is not clear why your mission has 
drifted to the extent it has and why it is necessary that it 
has. That is the bottom line.
    Senator Coburn. I just want to get on the record GAO's 
recommendations of what they think should be done.
    Ms. Melvin. We had issued a suggestion to Congress to 
revisit the model for the fee-based system. We continue to 
believe that looking at that model and reassessing whether it 
is the right way, the appropriate and viable approach to 
handling and having NTIS do its business, is necessary. So, we 
stand by that recommendation--that matter for consideration.
    Senator McCaskill. I am through, too.
    I want to thank you. I know this has not been fun, but this 
is called oversight and it is us trying to get to the bottom of 
something that is really--I mean, between Dr. Coburn's staff 
and my staff, we are pretty good at getting in the weeds, and 
it is harder at your place to get into the weeds, and that is 
why we want to understand it better.
    We will continue asking questions. The record will remain 
open for 15 days. We will specifically start asking some 
questions about those large contracts and whether or not your 
agency is the right place for them to be positioned, and we 
want to thank GAO for your continuing great work.
    Senator Coburn. I have one other thing.
    Senator McCaskill. Sure.
    Senator Coburn. I am going to put these questions for the 
record, but I want to read them into the record. These are 
constituents that have questions. One is from Pete. The Federal 
Government penalizes contractors when audits show unfair 
pricing. Why should not the NTIS be held to the same standard, 
and especially on pricing on a lot of this product?
    What is NTIS's most requested report and how much does it 
sell for and how many times has it been requested?
    Who are NTIS's customers? Who is ordering and paying for 
reports? Which agencies? You gave us that information, provided 
it.
    Here is the one that gets me, and I think that started all 
of this. How can we pay with our taxes for another department 
for something that is free online? That is the real bug that 
gets the American taxpayer.
    And, where does the money go? Well, I think you have 
answered part of that, but the vast majority of your revenues 
are going to decline on actually selling the reports, and so 
you are going to be more impaired to go do more of the services 
that you will need to do to run your organization.
    So, I thank you for being here, and we will submit these 
questions for the record.
    Senator McCaskill. Thank you very much.
    
    [Whereupon, at 3:42 p.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 
                                 <all>
</pre></body></html>
